BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Justin
Marques Henning v. United States ofAmerica was sent
via Next Day Service to the U.S. Supreme Court, and
Next Day Service and e-mail to the following parties
listed below, this 2nd day of July, 2020:
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USD OJ.gov
Nicola T. Hanna
United States Attorney
L. Ashley Aull
Assistant United States Attorney
Scott D. Tenley
Jeffrey M. Chemerinsky
Assistant United States Attorneys
Julia L. Reese
Assistant United States Attorney
Criminal Appeals Section
1000 United States Courthouse
312 North Spring Street
Los Angeles, CA 90012
(213) 894-6681
j ulia. reese@usdoj.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Anne M. Voigts
Counsel of Record
KING & SPALDING LLP
601 South California Ave.
Suite 100
Palo Alto, CA 94304
(650) 422-6700
avoigts@kslaw.com
W. Scott Cameron
Matthew V.H. Noller
KING & SPALDING LLP
621 Capitol Mall
Suite 1500
Sacramento, CA 95814
(916) 321-4800
scameron@kslaw.com
mnoller@kslaw.com
I Cason Hewgley IV
KING & SPALDING LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
chewgley@kslaw.com

Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on July 2, 2020.

D

DonnaJ.V/
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

d ~ d- 1 2Jod0
ck~~-b~
Q

Notary Public[seal]

JOHN D. GALLAGHER
N tary Public, State of Ohio
My Commission Expires
Februa,y 14, 2023

